<html>
<title> - VIETNAM: WHY RELIGIOUS FREEDOM AND HUMAN RIGHTS ARE CRITICAL TO U.S. NATIONAL INTERESTS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                VIETNAM: WHY RELIGIOUS FREEDOM AND HUMAN
                  RIGHTS ARE CRITICAL TO U.S. NATIONAL
                               INTERESTS

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 25, 2017

                               __________

                           Serial No. 115-32

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                                              
                                 
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
25-559PDF                   WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a7c0d7c8e7c4d2d4d3cfc2cbd789c4c8ca89">[email&#160;protected]</a>                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
DANIEL M. DONOVAN, Jr., New York     AMI BERA, California
F. JAMES SENSENBRENNER, Jr.,         JOAQUIN CASTRO, Texas
    Wisconsin                        THOMAS R. SUOZZI, New York
THOMAS A. GARRETT, Jr., Virginia
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Quan Q. Nguyen, M.D., chairman, Rallying for Democracy...........    11
Nguyen Dinh Thang, Ph.D., president and chief executive officer, 
  Boat People SOS................................................    22
Mr. T. Kumar, director of international advocacy, Amnesty 
  International..................................................    29

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations: Prepared statement..............................     4
Quan Q. Nguyen, M.D.: Prepared statement.........................    15
Nguyen Dinh Thang, Ph.D.: Prepared statement.....................    25
Mr. T. Kumar: Prepared statement.................................    32

                                APPENDIX

Hearing notice...................................................    48
Hearing minutes..................................................    49
The Honorable Eliot L. Engel, a Representative in Congress from 
  the State of New York: Letter to Secretary Tillerson on human 
  rights in Vietnam..............................................    50
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    52
The Honorable Alan S. Lowenthal, a Representative in Congress 
  from the State of California:
  Letter on Lien Tri Buddhist Temple.............................    54
  Followup letter on Lien Tri Buddhist Temple....................    56

 
                   VIETNAM: WHY RELIGIOUS FREEDOM AND
                   HUMAN RIGHTS ARE CRITICAL TO U.S.
                           NATIONAL INTERESTS

                              ----------                              


                         THURSDAY, MAY 25, 2017

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 12:36 p.m., in 
room 2172 Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The hearing will come order and good afternoon 
to everyone.
    Before we start, I just want to recognize one of my 
constituents who's here, Joseph Fischer, a Vietnam War veteran, 
a combat veteran who is down visiting. He's from Freehold and I 
want to thank him for his service.
    He was and continues to be totally committed to human 
rights and fairness for the people of Vietnam and I want to 
thank him for joining us today. Thank you, Joe.
    Ladies and gentlemen, over the past 42 years, much has 
changed in Vietnam. Today's people are a little richer but they 
still have very few rights.
    The Vietnamese Communist Party has opened up a bit to the 
outside world but remains closed to democratic reforms and the 
rule of law.
    U.S.-Vietnamese relations have warmed because Vietnam fears 
China's increasing economic power and its incursions in the 
South China Sea, but we see few human rights improvements 
emerge from the better relations. As a matter of fact, there 
has been a profound reversal in the area of human rights 
protection.
    Over the past 2 years, Human Rights Watch has used the 
words dismal and abysmal to describe Vietnam's human rights 
record. Vietnam scored a seven, the lowest score on Freedom 
House's Freedom in the World index.
    From sex and labor trafficking to the censorship of the 
press and the Internet, from restrictions on independent labor 
unions to severe repression of faith communities, the 
Vietnamese Government and the Communist Party is one of the 
world's worst abusers of human rights.
    For too long Vietnam has gotten a free pass on human 
rights. Diplomats are so focused on the fact that Vietnam is 
not China that this oppressive police state is granted trade 
and security benefits without conditionality.
    There is a silent human rights crisis going on in Vietnam 
that must be addressed. Human rights should be a top part of 
the meeting with President Trump's next meeting next week with 
Vietnam's Prime Minister, Nguyen Xuan Phuc. Doing so will 
advance U.S. economic and security interests and, above all, 
it'll advance the cause of the people of Vietnam who deserve 
better than the dictatorship that they are living under.
    The President has a real opportunity to bring about 
tangible reform to Vietnam and that is why we are meeting. The 
proximity of this hearing is precisely designed to try to let 
the President know how important it is that he raise these 
issues robustly with the Prime Minister.
    I have been to Vietnam several times on human rights trips. 
I have met with advocates and young activists for decades, like 
imprisoned rights activist Nguyen Van Dai. I know there is a 
younger generation in Vietnam, 66 percent of who are under the 
age of 40, that looks to the U.S. as a land of opportunity and 
freedom.
    They want the same liberties enjoyed by their relatives in 
California, Texas, Virginia, Louisiana, and so many other 
places where former Vietnamese refugees have flourished. The 
Vietnamese people want the United States to be a voice for 
freedom because their voice in-country is silenced.
    No government that represses its own people or restricts 
fundamental freedoms can be a trusted ally of the United 
States.
    No government that censors the Internet, tortures and jails 
dissidents, and crushes civil liberty and civil society should 
be given generous trade or security benefits, again, without 
strong conditionality.
    The President will face pressure from his advisors, I am 
sure, and especially the business community, to look at Vietnam 
through the lens of trade deals and the containment of China.
    Hopefully, he will be able to see the situation more 
clearly than past administrations both Republican and 
Democratic.
    Failing to press for real and concrete human rights 
improvements underestimates U.S. leverage and will disappoint 
the young generation of Vietnam who are the country's dynamic 
future.
    It should be clear by now that Vietnam needs the U.S. 
markets and security commitments much more than the United 
States needs Vietnam's markets and security cooperation.
    If history is any guide, the President's championing of 
individual rights will meet with some success. If his interest 
in human rights is sustained, those successes could be tangible 
and even far reaching.
    The Vietnamese Government has responded to concerns 
expressed by the last two administrations when they linked 
human rights improvements to better U.S. relations whether to 
gain entry into the World Trade Organization, the TPP--Trans-
Pacific Partnership, or to address U.S. concerns over religious 
freedom abuses.
    The Vietnamese Government, at least for a time, took steps 
toward reform when pressed by past American Presidents. It is 
when the U.S. loses interest in human rights that conditions 
regress.
    The Communist leaders in Hanoi take our trade benefits and 
security commitments and continue repressing those seeking 
political reform and universally recognized freedoms.
    The business of the Communist Party is to stay in power and 
repressing those they believe will challenge their power. They 
will not embrace human rights improvements or the rule of law 
unless it is a firm condition of better relations with the 
United States.
    I am circulating a letter for signatures to other Members 
of Congress detailing the strategic opportunities available for 
the United States and the Vietnamese people if the President 
pursues a robust human rights agenda.
    The letter urges the President to pursue Internet freedom, 
religious freedom, independent labor unions, and release of 
prisoners of conscience as a condition of U.S. assistance.
    I wrote today to Secretary Rex Tillerson to urge more 
robust human rights diplomacy as well in Vietnam, particularly 
on the issue of religious freedom.
    We, I believe, and the U.S. Commission on International 
Religious Freedom, or USCIRF, recommended that Vietnam be 
designated as a country of particular concern for severe and 
egregious religious freedom restrictions.
    That report provides compelling evidence of egregious and 
ongoing religious freedom violations in Vietnam.
    The President should follow USCIRF's recommendation and 
immediately, without any delay, designate Vietnam as a CPC for 
its religious freedom violations. The designation carries with 
it potential sanctions and visa denials for Vietnamese 
Government officials complicit in religious freedom abuses.
    No Vietnamese Government official who tortures political 
dissidents or restricts their activities should profit from 
access to the United States and let me say that violence and 
intimidation faced by the Hmong and Montagnard by Khmer Krom 
Buddhists, by independent Cao Dai groups is outrageous.
    The torture faced by Ms. Tran Thi Hong is absolutely 
shocking. She was on her way to meet U.S. Ambassador-at-Large 
for International Religious Freedom David Saperstein, who did a 
magnificent job in the last administration for religious 
freedom.
    She was on her way to meet with him to push for the release 
of her husband, Pastor Nguyen Cong Chinh, and she was horribly 
mistreated.
    If there are religious prisoners, if forced renunciations 
into faith are happening, if pagodas and churches and places of 
worship are forcibly closed, how does Vietnam not meet the 
criteria for CPC, as our good chairman, Ed Royce, has asked 
repeatedly as well?
    Over and over again, he has asked the administration 
redesignate them as a CPC country.
    I will be working closely with the State Department on this 
and without objection my full statement will be made a part of 
the record. I'd like to yield to my friend and colleague, Ms. 
Bass.
    [The prepared statement of Mr. Smith follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Ms. Bass. Well, once again, thank you, Mr. Chair, for your 
leadership in general on human rights but especially on human 
rights in regard to Vietnam.
    I think this is going to be an important hearing today. I 
want to thank the witnesses for taking the time to come and 
provide testimony and I know on all of our parts pushing for 
human rights and democracy around the world is really critical 
and one of the reasons why we are concerned about the level of 
cuts and reductions to the State Department. So appreciate you 
for taking your time out today.
    Mr. Smith. I want to thank Ranking Member Bass. Thank you 
so very much.
    I would like to yield to the distinguished chairman of the 
full committee, Congressman Ed Royce.
    Mr. Royce. Well, thank you, Chairman Smith, and thanks for 
calling this important hearing today.
    As we all recall, we had a similar hearing--I think it was 
1 year ago--and I wish there were no need to revisit these 
critical issues.
    But, unfortunately, Vietnam's one-party Communist state 
continues to oppress its citizens and deny them fundamental 
human rights and this is why we are here today. We do have a 
growing relationship with Vietnam, particularly in the security 
and trade areas.
    But for us, as Americans, human rights are a core value and 
we cannot segregate them from our ongoing engagement with that 
government. And I am grateful to our witnesses for 
participating in this hearing.
    It's good to see many of them again here--some old friends 
here. They will detail for us the many cases of violence and 
intimidation directed by the state toward religious people of 
many faiths in Vietnam.
    In addition to those crimes, and there is no other word for 
it than crimes, the state's effort to control every aspect of 
religious practice is a continuous violation of human rights, 
one with no end in sight, and for those who don't understand 
exactly what I am saying, when the state tears up the historic 
Buddhist texts and replaces it, that's what we are talking 
about.
    The Vietnamese Prime Minister arrives next week to meet 
here with President Trump, and alongside everything else that's 
discussed, the United States must call for the Government of 
Vietnam to respect its people's fundamental freedoms and among 
those none could be more important or more personal than the 
right to freedom of religion.
    Yet, in Vietnam the state continues to intimidate and 
harass citizens for nothing more than attempting to practice 
their faith, their religion freely and openly.
    Almost two decades ago I met with the Venerable Thich Quang 
Do, now the supreme patriarch of the Unified Buddhist Church of 
Vietnam. Well, frankly, he was in the same position then and he 
was under house arrest then, 2 decades ago. And, sadly, for all 
those years, he's been under arrest, still persecuted by that 
Communist government. And Thich Quang Do is not alone, the 
chairman mentioned Pastor Nguyen Cong Chinh.
    I've seen the photographs of the results of the beatings 
that he has taken at the hands of the police and the security 
apparatus. We have heard the pleas from his wife and we saw the 
treatment meted out to her.
    So for 5 years now he has remained behind bars on the 
questionable charges of undermining national security. What we 
call for today and what I urge the administration to call for 
in its meeting with the Prime Minister is respect for religious 
freedom.
    The Vietnamese Constitution provides for it. One must ask, 
then, why officials can obstruct and interfere with this 
constitutionally guaranteed right to worship freely. We must 
ask further that if this constitutional right can be ignored, 
what weight can we give any other constitutional or legal 
rights in Vietnam?
    I am pleased that the U.S.-Vietnam relations are warming 
and I hope for a stronger and more productive relationship 
between our countries.
    However, continued cooperation and improvements in our 
relationship must be predicated on a mutual respect for human 
rights and for the rule of law. It is who we are. It is what I 
hope they are. But it is up to them in that government to show 
it, to show respect for their constitution with respect to 
these rights.
    So, Mr. Chairman, thank you again for bringing attention to 
this important issue and I, again, thank the witnesses.
    I yield back.
    Mr. Smith. I want to thank the distinguished chairman for 
his tenacious promotion of human rights in Vietnam. You have 
made sure the full committee keeps a very sharp focus on this 
and I want to thank you for your great leadership.
    I would like to now yield to Mr. Lowenthal.
    Mr. Lowenthal. Thank you, Mr. Chairman. Thank you for 
allowing me to join with you today. I am very much 
appreciative. I am very pleased to be here and also to share 
with you, as one of the co-chairs on the Congressional Caucus 
on Vietnam.
    As you pointed out, first of all, we are holding this--and 
I applaud your leadership, because this is a very timely 
hearing--in advance of Prime Minister Nguyen's visit to the 
White House next week to meet with President Trump.
    As we all know, the situation of human rights in Vietnam is 
dire. During my time in Congress, although there have been 
small selective attempts to improve the human rights condition 
at times, we have also seen tremendous backsliding and, I would 
say right now as was pointed out by my colleagues, I have not 
really seen any true improvement on the way the Vietnamese 
Government deals with its and treats its own citizens.
    On religious freedom, as was pointed out, the government's 
record is especially troubling. I adopted the case, and I think 
both my colleagues have pointed out the case--I have adopted 
the case of Pastor Nguyen Cong Chinh, a Lutheran pastor 
imprisoned since 2012.
    I adopted his case as a prisoner of conscience through the 
Tom Lantos Human Rights Commission.
    But what have we seen? We have seen Pastor Chinh face 
tremendous mistreatment in prison while his wife, Tran Thi 
Hong, was detained, beaten by security forces last year after 
she met with the visiting U.S. Ambassador-at-Large for 
International Religious Freedom.
    I was also offended when the Vietnamese Government, after 
multiple letters from myself, from the chairman and also 
Chairman Royce and other Members of Congress, when the 
government proceeded to demolish the Lien Tri Temple in Saigon, 
a place of worship, an important religious center, that we 
raised this issue even after multiple entreaties from ourselves 
to really respect the rights of the temple. That did not occur.
    Mr. Chairman, I also ask for unanimous consent to insert 
two letters to the Vietnamese Ambassador urging him to 
intervene to stop the demolition of the Lien Tri Temple to 
which we have received no response at all.
    Thank you and I will reserve the rest of my time for 
questions.
    Mr. Smith. Mr. Lowenthal, thank you very much and without 
objection your request will be in order.
    Mr. Lowenthal. Thank you.
    Mr. Smith. I would like to now introduce our very 
distinguished witnesses for today, beginning with Dr. Nguyen 
Dinh Thang, and many who came to the United States as a refugee 
from Vietnam in 1979.
    After earning his Ph.D., he began volunteering with Boat 
People SOS in 1988 and became the head of Boat People SOS for 
the past 25 years.
    And I would just say, on a very personal note, in the mid-
1990s when I assumed the chairmanship when the Republicans took 
control in 1994, one of the first people I met with was Dr. 
Thang, and Joseph Rees, who was then my staff director for the 
subcommittee, worked very closely with him and we held a long 
series of hearings starting off with trying to ensure that the 
refugees that were in High Island and I went and visited High 
Island in Hong Kong where boat people were falsely screened out 
as nonrefugees.
    They didn't have any well-founded fear of persecution and 
under a very coercive process about 40,000 were told as the 
Comprehensive Plan of Action was ended that they are not going 
to come to the United States. We held four hearings on that 
alone and Dr. Thang was a true inspiration to this subcommittee 
and to me personally on how there was a false narrative that 
people could go back and there would be no retribution, even 
though they had spent time in High Island and other camps 
dotting that area of the world.
    I will never forget we were told they were repatriation 
monitors and it turned out there were seven of them so I held a 
hearing on it, and they told me that when they met with people 
who were coercively sent back against all of the norms of 
refugee protection that they were retaliated against and they 
were visited by the repatriation monitors.
    The person in tow with them was from the secret police. So 
open are you going to be when you have a thug sitting right 
next to you?
    Dr. Thang helped us put together an amendment to deny any 
U.S. assistance for forcible repatriation. I offered that 
amendment of the floor. It passed overwhelmingly in bipartisan 
fashion and from that came the ROVR program and more than 
20,000 people then got rescreened and were included and came as 
refugees to the United States, one example of many of Dr. 
Thang's leadership and I want to thank him or that.
    We will then have the testimony of Dr. Quan Nguyen, who is 
with Rallying for Democracy in Vietnam. Dr. Quan went to 
medical school in Saigon, served in the South Vietnamese Army 
with the rank of Captain in the medical corps.
    When South Vietnam fell into the hands of the Communists in 
1975, he escaped by boat and became a refugee in the United 
States.
    In addition to his medical practice in Virginia, Dr. Quan 
has been actively involved in advocating freedom, democracy, 
and human rights in Vietnam, and again, he too has done it for 
over a quarter of a century.
    He is the brother of Dr. Nguyen Dan Que, a man that I met 
in Saigon on one of my many trips there--a courageous 
campaigner of human rights. He is in Saigon and he has been 
imprisoned numerous times and is still serving a type of house 
arrest as we meet here today.
    Dr. Quan has campaigned continuously with the United States 
Congress. He's worked very closely with the AFL-CIO to pressure 
the Vietnamese Government to improve human rights.
    Then we will hear from an old friend of this subcommittee, 
Mr. T. Kumar of Amnesty International. He's the advocacy 
director for Asia, Europe, and the United Nations.
    He has testified before the U.S. Congress on numerous 
occasions to discuss human rights abuses. He has served as a 
human rights monitor in many Asian countries as well as in 
Bosnia, Afghanistan, Guatemala, Sudan, and South Africa. He 
also served as direct of several refugee ships and camps. T. 
Kumar has been a political prisoner himself, having served over 
5 years in Sri Lanka for his peaceful human rights activities.
    Amnesty International adopted him as a prisoner of 
conscience. He started his legal studies in prison and 
eventually became an attorney and devoted his entire practice 
to defending political prisoners.
    We are joined by Mr. Garrett from Virginia, if you'd like 
to make any comments.
    I would like to now go to Dr. Thang.

  STATEMENT OF NGUYEN DINH THANG, PH.D., PRESIDENT AND CHIEF 
               EXECUTIVE OFFICER, BOAT PEOPLE SOS

    Mr. Thang. Mr. Chairman and distinguished members of the 
committee, around this time last year some optimistic ones out 
here have had some cautious hope and expectation that with a 
new leadership coming in to play in Vietnam there would be a 
better day for the country and her people.
    Instead, over the past 12 months, we have observed a 
crackdown against independent religious communities intensify 
significantly.
    We have documented close to 100 religious prisoners at this 
time, with over 60 percent of them being Montagnard Christians 
in the Central Highlands. Less than a month ago, Pastor A Dao, 
whom I know personally, of the Montagnard Evangelical Church of 
Christ in Kontum Province, was sentenced to 5 years in prison 
on bogus charges.
    Following his arrest the authorities in five provinces 
mounted a very well-coordinated effort to force members of his 
church to renounce their faith. So far, they have succeeded 
because out of the 1,500 regional members of the church, 1,000 
have signed a statement to abandon the church, to leave the 
church.
    The following chart illustrates the gravity of religious 
persecution in the Central Highlands over the past few years. 
In green are forced conversion--incidents of forced conversion 
in three provinces across a number of years.
    In yellow are incidents that involve torture. In red are 
incidents of death caused by torture and in blue are prison 
sentences in each of those years.
    So, clearly, persecution against independent churches in 
Vietnam has not subsided and the government frequently uses 
torture as its tool for religious repression. Perhaps best 
known to the State Department and Members from Congress is the 
case of Ms. Tran Thi Hong, and Chairman Royce and Congressman 
Lowenthal have mentioned that case.
    But let me add one thing here. There is a picture of Ms. 
Hong after the first working session with the public security. 
She was beaten up, tortured. She couldn't walk at all, and her 
neighbors had to drag her into her home.
    Fortunately, the torture after almost 2 months stopped only 
because Ambassador-at-Large Saperstein made a phone call 
himself to the Vietnamese Embassy expressing great concern and 
also because six U.N. human rights experts jointly and publicly 
denounced the violation of human rights against Ms. Hong.
    We have received many reports of death by torture. As an 
example, Pastor Ksor Xiem of the Dega Church Gia Lai Province 
was arrested on Christmas Eve of 2015 so that he could not hold 
Mass for his followers. His captors tortured him brutally as he 
refused to renounce his faith and disband his church. He was 
left to go home but he died 15 days later.
    Around Christmastime last year, Y Ku Knul, a member of the 
Montagnard House Church in Dak Lak Province, was abducted while 
working the field. Two days later, his wife found his body 
hanged on a tree and all covered with bruises, and this is his 
body before burial. The public security had demanded him, the 
victim, to deliver his own younger son, 21 years old at the 
time, who was doing missionary work in Cambodia, to the public 
security police and he refused, and the surviving wife believed 
that his death was a result of that. And now his son is seeking 
asylum in Thailand.
    Most tragic was the death, perhaps in police custody 
earlier this month, of Nguyen Huu Tan, 38 years old. He came 
from a very respected Hoa Hao Buddhist family. His father is a 
Buddhist monk with the UBCV.
    That is Unified Buddhist Church of Vietnam, which has been 
outlawed by the Government of Vietnam for the past 42 years. On 
May 2nd--that is about 3 weeks ago--some 80 public security 
agents searched his home--Tan's home--without a search warrant. 
They collected receipts of money transfer from the U.S. and a 
small piece of yellow cloth.
    Based on that, the public security charged that Tan had 
received money from reactionary forces abroad to work on a plan 
to fly the South Vietnamese flag in public someday.
    Actually, the receipts came from the monthly remittance 
sent by Tan's oldest sister from Savannah, Georgia, and the 
yellow cloth is the lining of a gift box also from the same 
sister.
    Tan was taken away at 2:00 a.m. At 7:00 a.m., his family 
was told to report to the provincial department of public 
security of Vinh Long Province. Hours later, Tan's wife and 
father were brought inside to see his body.
    His throat was thoroughly slit. The authorities said that 
Tan had cut his own throat with a letter opener only this long. 
And here is Tan. I apologize for the gruesome picture. His 
family did not believe in that story and demanded an autopsy by 
an independent professional and proper investigation. The 
authorities now are threatening to arrest the two brothers of 
Tan unless the family drops its demand.
    Tan's older sister, the one who sent money home to Tan over 
the years, is Ms. Nguyen Thi My-Phuong. She and her husband 
arrived in town from Savannah yesterday to be at this hearing. 
So I would like to acknowledge their presence here. This is Ms. 
My-Phuong, flying in from Savannah.
    Expropriation of properties is another form of persecution 
often used by the government to cripple independent religious 
organizations.
    Of the thousands of facilities belonging the Hoa Hao 
Buddhist Church before 1975 only one temple remains to this 
day, the Quang Minh Tu Temple in An Giang Province, and the 
government is determined to take it. The independent Cao Dai 
groups now control only 5 percent of its 532 pre-1975 religious 
facilities and the government is targeting the remaining 
facilities one by one.
    Similarly, about 90 percent of all pagodas belonging to the 
United Buddhist Church of Vietnam have been expropriated and 
turned over to the government-created Vietnam Buddhist Sangha.
    The government demolished the Lien Tri Pagoda last year and 
is targeting half a dozen other pagodas in Danang City, Ba Ria-
Vung Tau, and Dong Nai Provinces. Entire Catholic parishes have 
been targeted as well. Located near the now infamous Formosa 
Steel Plant in Ha Tinh Province, the century-old Catholic 
parish of Dong Yen is facing extinction.
    On March 17, 2015, one of the districts of Ha Tinh Province 
sent in the police to seize land, destroy homes, and bring down 
religious facilities.
    They beat up parishioners, causing injuries to many, 
including one pregnant woman and a Catholic nun. The government 
then barred 153 children of the parish from going to school for 
more than 2 years as punishment.
    Of the 1,000 original families in the parish, 158 continue 
to fight to preserve their church and their community. And this 
subcommittee has held many hearings on the Catholic parish of 
Con Dau in Danang City. In May 2010, the police assaulted 
mourners attending the funeral of a 93-year-old parishioner. 
Over 100 parishioners were injured, 62 arrested and tortured 
for days or weeks, and some of those victims have testified 
before this subcommittee, six sentenced to prison terms.
    One parishioner who initially escaped capture was caught 
and beaten to death. The government then handed 110 acres they 
had took from Cao Dau Parish to Sun Group, a private developer, 
to sell to individual investors for a total price estimated at 
<greek-l>$ deg.1.2 billion U.S. dollars.
    Ironically, Danang City were host of this year's APEC 
Summit, which President Trump will attend in November, and key 
summit activities will be held at a five-star resort in Danang 
City owned by none other than Sun Group.
    This would give the appearance that the U.S. Government 
tolerates religious persecution, land grabbing, and the use of 
torture. As he welcomes Vietnamese Prime Minister Nguyen Xuan 
Phuc to the White House next week, President Trump should 
insist that APEC Summit be moved to another location and its 
venue not be at any facility owned by Sun Group.
    I further recommend that in its enforcement of the Global 
Magnitsky Human Rights Accountability Act and the Frank Wolf 
International Religious Freedom Act, our State Department 
should investigate information that we have provided to them on 
close to 100 religious prisoners and close to 200 government 
officials implicated in gross violations of human rights.
    Finally, I'd like to propose and recommend that concerned 
Members of Congress establish an ongoing communication 
mechanism to raise concern directly with the Vietnamese 
Government on reported gross violations of human rights as they 
arise.
    While hearings like this are very important, they shed 
light on the most recent and most egregious violations, there 
is a need for an ongoing mechanism that offers the same level 
of attention to reported violations between hearings.
    Thank you.
    [The prepared statement of Mr. Thang follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Dr. Thang, thank you very much for your 
testimony and recommendations.
    We have a substitute for Dr. Quan. I just have to--under 
orders of his cardiologist Dr. Quan was told he--it would be 
better not to be here just because of that.
    But we do have Mr. Dave Nguyen, who has also been very 
active in the human rights fight who will read Dr. Quan's 
testimony.

   STATEMENT OF QUAN Q. NGUYEN, M.D., CHAIRMAN, RALLYING FOR 
                           DEMOCRACY

    Mr. Nguyen. Thank you. Honorable Chairman Chris Smith and 
distinguished members of the subcommittee, I'm here to read a 
letter on behalf of Dr. Quan Nguyen, the chairman of Rallying 
for Democracy in Vietnam.
    The letter: Forty-two years ago when the Communist forces 
began to occupy South Vietnam, I left my country on a small 
boat and escaped to America.
    I have been lucky to be able to rebuild my life here and 
it's truly an honor to testify before the distinguished 
subcommittee about the long struggles of Vietnamese people.
    Thank you for holding this hearing, allow me to share some 
important issues that I believe should be brought to light.
    As we all know, Vietnam is a one-party system where there 
is no separation of administrative, judiciary, and legislative 
branches. The situation in Vietnam is ripe for transformation. 
The people in Vietnam deserve support for their quest for 
freedom and democracy from the international community, 
particularly the United States.
    In that spirit, I would like to draw attention to the 
important issue of religious freedom. To the Government of 
Vietnam, religion is opium and the Hanoi government's policy 
has always been to repress religious freedom.
    There is an unfortunate misconception from the West that 
the mere existence of churches and temples in Vietnam implies 
that there is freedom of religion. That is far from the truth. 
Per the latest report on the U.S. Commission on International 
Religious Freedom, religious freedom in Vietnam has 
deteriorated significantly.
    The Vietnamese Communists used Decree 92 issued in August 
2012 to strictly control all religions in Vietnam. All churches 
need to be registered and accepted by the government.
    The registration procedure allows the government to refuse 
application of a church considered to be nonfriendly to the 
government.
    For years now the Communist government has refused to 
recognize the Unified Buddhist Church. So if you want to become 
a monk, nun, or priest, you have to notify and get permission 
from the local government.
    All promotions and appointments inside a church have to be 
accepted by the government. Even if the Vatican wants to 
appoint a new cardinal or bishop, it needs to inform and get 
approval from the Vietnamese Government.
    So at the end of every year each church is required to 
notify the local governments of its detailed plans for the next 
year such as the dates and times of events being held and what 
are the purpose and how many people will attend. Bishop of 
Kontum Patriarch Hoang Duc Oanh was actually refused permission 
to organize a Christmas Mass.
    Father Nguyen Van Ly, the Most Venerable Thich Quang Do, 
Pastor Nguyen Cong Chinh, and several leaders of local 
indigenous Cao Dai and Hoa Hao Churches are all examples of how 
religious leaders who advocate religious freedom are continued 
to be imprisoned and placed under house arrest.
    The recent death of Mr. Nguyen Huu Tan, Hoa Hao Buddhist 
follower, in the police station in Vinh Long where his neck was 
cut by the police and the violent attacks of the Vietnamese 
security forces on peaceful manifestations of the Catholics in 
central Vietnam against the destruction of the environment have 
caused people's anger and upset.
    The government continues to seize several properties 
belonging to the Catholic and Buddhist churches. Last year, 
they pressured Lien Tri Temple to stop activities and to sell 
its lands to the local government for a development project.
    The local government also pressured the Fathers of the 
Redemptorists Vietnam--Dong Chua Cuu The Viet Nam--to stop its 
health care program for the veterans of the south.
    In light of this religion freedoms violation, the U.S. 
Government should push for the following course of action. The 
Vietnamese Government should implement U.N. principles on 
religious freedom including the release of those in prison for 
beliefs and practices and fully restore the rights of 
citizenship, property, and residence permits.
    The Vietnamese Government should stop repressing indigenous 
religious subsets, Hoa Hao and Cao Dai. They should also stop 
promoting its state churches to interfere with the Buddhist and 
Catholic religions.
    Lately, on November 18, 2016, the National Assembly finally 
rectified a law of belief and religion even with the extensive 
criticism from human rights and religious groups.
    In fact, in an open letter to the Vietnamese Government 
prior to the ratification of the law, a number of organizations 
and lawmakers reject the clause stating that ``religious groups 
must be registered and approved by the government in order to 
practice.''
    This clause should be omitted as it gives the government 
the power to continue to oppress the people. In fact, the law 
will go in effect starting January 2018. The current situation 
in Vietnam on human rights, labor rights, transparency, 
intellectual property, copyrights really do not meet the 
requirements of the U.S. Government as a trusted bilateral 
economic partner.
    We are truly looking to Congress to emphasize that Vietnam 
needs to carry out fundamental reforms in these areas and to 
make sure that they become reality before Vietnam can be taken 
off the CPC list.
    There should be no waivers or delays implementing these 
requirements. International monitors need to strictly enforce 
treaty provisions before written and verbal agreements with 
Vietnam.
    The reforms that Vietnam must carry out will ultimately 
help to democratize Vietnam. Only a democratic Vietnam can be 
the U.S.'s true reliable strategic partner in Asia.
    Therefore, now is the golden opportunity for the U.S., 
especially with the upcoming visit by the Prime Minister of the 
Communist regime of Vietnam, to convince the Hanoi's government 
to embark on this win-win journey for all which would allow 
Vietnam to become a more democratic country and to 
simultaneously secure a comprehensive strategic partnership 
with the United States in Asia.
    This would bring prosperity to Vietnam, bring peace and 
security to the region and neutralize the pressure from China. 
Vietnam should see this opportunity and react positively by 
ensuring more human rights.
    Last but not least, Mr. Chairman and distinguished Members 
of Congress, I have been lucky to live in America's free 
society where I can express my own opinion without being 
intimidated or harassed.
    Therefore, I believe that is my responsibility to speak for 
my compatriots back home who do not have at all these 
privileges.
    Thank you for giving me the opportunity for today. 
Respectfully yours, Dr. Quan Q. Nguyen.
    [The prepared statement of Dr. Quan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Mr. Nguyen, thank you very much for your 
personal leadership for reading Dr. Quan's statement. Tell him 
how we hope he feels better.
    I would like to now yield to Mr. Kumar.

STATEMENT OF MR. T. KUMAR, DIRECTOR OF INTERNATIONAL ADVOCACY, 
                     AMNESTY INTERNATIONAL

    Mr. Kumar. Thank you very much, Congressman and Chairman 
Smith, and other members of the committee.
    Before I start, I would like to urge chairman to admit our 
statement in the record.
    Mr. Smith. Without objection, so ordered.
    Mr. Kumar. Thank you. I also want to mention about you, 
Chairman Smith, about your unwavering and strong commitment to 
human rights and this hearing is an example of that, and thank 
you again from Amnesty International.
    Today we are here to discuss Vietnam's Prime Minister's 
visit to Washington to meet with President Trump. We were also 
here when the annual U.S.-Vietnam Human Rights Dialogue is on 
its way now and we are also here before President Trump will be 
visiting Vietnam for the APEC Summit. Even though it's not 
bilateral, it's a visit by President Trump.
    So we are looking at three opportunities. The first 
opportunity is taking place at the moment. I hope State 
Department, which is leading the discussion, is very clear and 
firm in highlighting the cases and the abuses that are 
happening, including religious freedom issues.
    We hope that reflects in the Prime Minister of Vietnam's 
visit to Washington when he makes statements. We will know the 
results when he comes, whether dialogue is making any 
difference or not.
    So going into the issue of what's happening in Vietnam from 
the human rights perspective, I just want to touch on the 
overarching issue. The institutions which guarantee human 
rights, freedom, and even fair existence are the two main 
institutions--their judiciary and media.
    Both are under the complete control of the government 
there. We know that the party is in control--the Communist 
Party--but even these institutions are not free. So what the 
results is when there is an abuse against an individual, a 
citizen of Vietnam, he or she has no way to get justice there. 
Media can't report because they are under the control of the 
government.
    They can't go to the judiciary. The judiciary is under the 
control of the government. That's why international pressure is 
extremely important to make changes in the country so that 
citizens of Vietnam can have some basic protections to live as 
human beings and enjoy their rights.
    What we have documented over the years is that there are 
hundreds of political prisoners who have been arrested, 
tortured, some died during torture, and have been incarcerated 
in gruesome manners in that country purely for peaceful 
political expression of views including the latest online 
actions.
    That also extends to the religious freedom issues where 
religious minorities as well as independent religious groups 
are facing the difficult times in that country.
    One other issue that disturbs us there is that Vietnam is 
extremely numb when it comes to international pressure. The 
only country or few countries that have some leverage on 
Vietnam are the U.S. and some other countries in Europe. That's 
why U.S. leadership is extremely important in this.
    If the U.S. fails to speak, you can't expect any other 
countries in Asia or any other country, even European will dump 
it, saying ``Okay, the powerful country is just ignoring the 
plight of the people--why should we get involved?''
    On the other side of the coin is that the Vietnamese 
Government takes it extremely serious about what the U.S. is 
saying. Congressman Smith, you know, you have visited Vietnam.
    I presume you even visited some prisoners or prisoner 
families that need changes there. Even you have seen changes 
when there is a threat of Vietnam being put on the list for 
religious freedom issues.
    That shows they take it very serious. So the question today 
is now a great opportunity is happening in a week's time and 
whether President Trump will take advantage of that. That's 
what the big question now we are having.
    So this particular hearing is of extreme importance on that 
note. President Trump and his advisors will be watching this 
and we hope that'll translate into some action in terms of 
human rights.
    The issue of religious freedom--coming back to the issue--
there are two issues that disturb us. One is the new draft law 
now which has become a law, per se, on religion and belief.
    It's pretty much tightened the noose--pretty much tightened 
the control of the government on religious issues. They are 
religious freedom for religious groups there. Even the 
registration aspects make it very difficult to register.
    So you throwing a new law that the group wanted to 
register. It makes it impossible to register because the 
cumbersome nature of the registration makes it very difficult.
    Number two, the law is written in such a way that the 
government authorities have numerous openings to interfere in 
religious activities. Legally they can interfere.
    When this draft law came up, Amnesty International and 
numerous international human rights organizations who take a 
strong view on every country--Chairman, you know, even in--on 
this country we take strong views--so we have taken a very 
strong view and said wait a minute, you have this draft law.
    Make sure you change the law so that--make edits so that it 
will have some impact on the--so that religious groups can act 
freely and have freedom. It did not happen.
    So President Trump can raise that from the religious point 
of view. This is the beginning, by the way, there. We don't 
what else is going to come up there. Second issue is the forced 
renunciation of religious groups.
    Okay, they don't not only allow people to worship as they 
wish or belong to a group or a religious group as they wish. 
They come after you and force individuals to renounce religion.
    So even these two issues should shake the conscience of the 
White House and President Trump. We hope he will take note of 
this and take advantage of the meeting he's having. We all know 
that security will be on the top of the agenda. We have nothing 
against it.
    We know that South China Sea issues are going to be on the 
agenda. We know that trade deals will be on the agenda, even 
though TPP is out, they will be discussed. What we are asking 
is to raise the concern of the people of the country.
    We have all these deals--trade deals, security deals. But 
hold the people of that country--you are dealing with a leader 
who is not an elected leader. It's a one-party state. So you 
have a duty and responsibility to ensure that you raise human 
rights.
    What type of human rights issue should President Trump 
raise? As I mentioned on the religious freedom issue, two 
issues at least he should raise.
    One is the new draft law should be amended. Number two, 
forced renunciation should stop right away. He should also 
demand immediate and unconditional release of political 
prisoners and religious leaders and religious prisoners there.
    The other one he should urge is when he arrives in November 
for the APEC Summit, at least some prisoners should be 
released. That call should be there. Chairman Smith, you know 
what happened when President Obama visited last time.
    They not only did not release any prisoners, they started 
arresting people, and President Obama kept quiet and came out. 
The same impression should not be given by President Trump.
    President Trump should not give the impression to 
Vietnamese that he will keep quiet when he's there when they 
start arresting and harassing civilians and other human rights 
defenders, he will keep quiet.
    So the message should be given here next week. One more 
thing, while he's in Vietnam in November he should also meet 
with families of the political prisoners. It's a goodwill 
gesture. Nothing is going to happen to President Trump for 
meeting there.
    The message should be also very clear to Vietnamese 
authorities that if they go after the families whom he is 
meeting, they will pay a dear price. Hope that happens.
    So we are talking about an issue here from three 
opportunities. One is happening now, the dialogue. Second is 
next week's meeting. Third is the APEC conference.
    Whether the new administration under President Trump will 
take the lead issue, we are not asking that human rights become 
the top priority.
    We are asking human rights be one of the issues you'll 
discuss. And always after the event--after the dialogue, after 
the meeting here that both leaders come and address the press.
    We have an appeal to the press, please ask questions on 
human rights, and we have an appeal to President Trump, to 
ensure that before even there's a question on human rights you 
proactively say what he cares--that he cares about human 
rights.
    Thank you, Chairman, for inviting Amnesty International, 
and once again, we applaud your leadership on human rights 
issues.
    Thank you.
    [The prepared statement of Mr. Kumar follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Mr. Kumar, thank you very much for your stellar 
leadership, your personal commitment, having served as a 
political prisoner, served in prison.
    Just incredible, and now you speak out on behalf of others. 
Your recommendations were, I think, extraordinarily incisive. 
So thank you for that.
    I'd like to yield to Mr. Garrett.
    Mr. Garrett. Thank you, Mr. Chairman, gentlemen, Mr. Kumar 
in particular, for your leadership not only in word but deed as 
it relates to the important issue of human rights.
    I see stark parallels as it relates to the previous 
administration's visit to Vietnam and the impact it had on the 
religious dissident community with testimony we heard before 
this subcommittee I believe last week as it related to 
religious minorities in China that President Obama was to meet 
with them.
    They did not show up at the meeting and ultimately 2 hours 
after he was on Air Force One returning to the United States a 
group was rounded up and arrested, many of whom we believe are 
still imprisoned, some of whom we don't know the status of 
their well being at all.
    And that same thing repeating itself in Vietnam is 
indicative of, I think, a lack of attention by the media 
globally, here in the United States and abroad as it relates to 
these important issues.
    I will tell you that you are correct that human rights are 
an issue but not the only issue. Certainly, security and 
stability are foci of the United States and I would welcome a 
strong relationship with a prosperous Vietnam as a stabilizing 
force in the region and the counterbalance to regional 
dominance by China.
    However, it's very difficult if you sit here where I do or 
where Chairman Smith does, to have any desire to promote 
prosperity and enhanced relations with a nation that treats its 
religious minorities the way the current Government of Vietnam 
does.
    One of the things that troubles me in the short period of 
time that I've been here is the concept that perhaps we'll have 
these meetings and instead of helping in the subject we will by 
virtue of having brought light to it hurt people in places like 
Vietnam who are exposed by the courage of individuals such as 
yourselves to speak.
    And so my immediate question to myself is what can I do to 
make sure that this meeting is for a net positive, for the 
better?
    And so while I have to leave and should have left about 10 
minutes for a meeting that I can't get around, I will promise 
everyone in this room the following: I will draft a letter to 
the President and copy the Vice President relating to the 
upcoming meetings with the Vietnamese Prime Minister on any 
future travels to Vietnam.
    In that letter I will ask that the President speak directly 
to human rights violations to Vietnam and articulate hopefully 
on behalf of himself and certainly on behalf of members of this 
committee and this elected legislative body that there will be 
hesitance to enhance relations, be they security relations or 
trade relations with any nation that oppresses individuals who 
exercises their God-given right to worship as they choose.
    I find it ironic but not humorous that there are 
individuals so devoted to a belief structure that they are 
willing to be beaten and in some instances killed and will not 
abandon that belief structure and yet a government such as that 
in Vietnam, after 42 years, for example, of trying to stymie 
the UBCV, still can't put out that light.
    You would think that at some point the government would 
realize that human beings will continue to make decisions for 
themselves and change their policy.
    To the extent that my voice might be helpful to prompting 
that outcome, I promise you it will be heard by our 
administration and I hope that our administration will carry it 
to the Government of Vietnam.
    Chairman Smith, I thank you for holding the hearing. I hope 
that you all will keep us abreast as it relates to developments 
following meetings between our head of state and that of 
Vietnam because I want to hope that changes for the better will 
be made and I want to hear if they are or are not so that we 
can act accordingly, moving forward.
    Thank you.
    Mr. Smith. Mr. Garrett, thank you very much for your 
leadership and for your very, I think, very appropriate 
remarks.
    Mr. Garrett. And a sincere apology on having to depart. But 
thank you all for having the courage to be here and we will 
certainly be a voice on your behalf.
    Mr. Smith. Thank you.
    Mr. Kumar, you made an excellent point in reminding us that 
when President Obama went to Vietnam in May 2016 that things 
got worse as he left and that is--and what was the consequence? 
Zilch.
    There was no consequence to that kind of abuse of 
individuals, almost as if they were trying to insult and in 
some way degrade the Presidency of the United States.
    I know the President had time to meet with the celebrity 
chef, Anthony Bourdain, while he was there on May 23, 2016, but 
not with political prisoners or their families, which I think 
would have sent a very clear and unambiguous message to Hanoi 
as to what U.S. priorities really are.
    Shaking hands and big smiles only go so far. Yes, meet with 
the Prime Minister. Meet with the top leadership. But only meet 
with them if you're prepared to raise individual cases and 
raise the larger human rights issues and I think all three of 
our distinguished witnesses have outlined that so very, very 
well today.
    I think it needs underscoring with exclamation points that 
when Ms. Hong met with Rabbi Saperstein, who I have a 
tremendous amount of respect for, and he certainly personally 
intervened after the fact when he realized, again, in an 
affront to a high American official, in this case the 
Ambassador-at-Large for International Religious Freedom.
    She, as you pointed out, as you all have, certainly, T. 
Kumar as well and Dr. Thang made reference to, she met with 
Rabbi Saperstein on March 30 of last year. She urged 
intervention for her husband, whose health was deteriorating, 
and for that she was interrogated 15 days later by the public 
security police.
    She was tortured for meeting a high official of the United 
States Government. That should have invited an immediately 
snapback by the United States Government, by the Obama 
administration in terms of sanctioning.
    CPC should have been immediate--a reimposition of Country 
of Particular Concern and the imposition of sanctions for that 
outrageous action against her and the picture you've provided 
us, Dr. Thang, of her, Ms. Hong, her inability to even walk 
just underscores the brutality of the secret police in Vietnam.
    And my hope is next week and now with the State Department 
in terms of their contacts with the Vietnamese that we will 
say, those days are over, and I, frankly, will be unceasing as 
chairman of the human rights subcommittee in trying to ensure 
that those days of gross violations of human rights and 
especially with the proximity of that visit.
    Two visits, President Obama, Rabbi Saperstein--retaliation 
that follows almost immediately thereafter. So my hope is that 
maybe you might want to expand upon that.
    How is Ms. Hong doing now and, again, I remember just an 
example, in 1982, I was in the Soviet Union.
    I met with Natan Sharansky's mother, who pleaded with me 
and Sam Gejdenson and members of the National Conference on 
Soviet Jewry to try to get humanitarian assistance to her son, 
Natan Sharansky, who was dying, or at least she thought he was 
very, very sick, in the gulag of the Soviet Union. She was not 
retaliated against by the Soviet leadership for making that 
plea to a congressional delegation and a National Conference on 
Soviet Jewry delegation.
    The mom was not retaliated against. Sharansky's situation 
actually improved when we raised his case with the Soviet 
officials. They responded. How can Vietnam do just the opposite 
and make matters even worse?
    Again, the reason and the proximity of this hearing is to 
say to President Trump and Vice President Pence--and I've known 
the Vice President for many years--he is a deeply committed 
believer, very faithful man who believes in human rights--that 
they need to be very clear and bold, and I think, Mr. Kumar, 
you said it doesn't have to be the top priority.
    I hope that it would be. But we need it to be a major 
priority at the very least in this dialogue and with this 
conversation with the Prime Minister. So if you might want to 
speak to Ms. Hong as to how she's doing now, and then just a 
few other questions that I will put on the table.
    You know, the Office of International Religious Freedom 
hopefully will soon have an Ambassador-at-Large. I would hope 
that the first thing that he does, if it is who I think it will 
be, will be to redesignate Vietnam as a Country of Particular 
Concern.
    Let's not forget that before the bilateral agreement 
between the United States and Vietnam agreed to, Ambassador 
John Hanford removed CPC status because he was told that there 
was a whole series of what he called deliverables, and ending 
of forced renunciations of faith was one of those and a greater 
expansion of freedom.
    I travelled to Vietnam, went to Hanoi, Hue, and Saigon. Met 
with about 60 pastors. I went and visited with the Venerable 
Thich Quang Do in his pagoda and another high-ranking leader of 
the Unified Buddhist Church, who was also under house arrest in 
another pagoda, and they were all hopeful.
    We were told the Vietnamese Government, with the trade 
agreement things would change. Almost immediately after that 
bilateral trade agreement went into effect, there was a 
snapback and retaliation has been brutal ever since and many of 
the people who signed Bloc 8406 and that wonderful manifesto 
for freedom and human rights became a hit list for the 
Vietnamese Government.
    So we have to be forewarned, eyes wide open that we are not 
kidding as a government. Vietnam has to change in a very 
significant way.
    Free the political prisoners, end the renunciations of 
faith and I think the Danang concern that you've raised, Dr. 
Thang, is an excellent one because we had, as you recall, 
hearings on how that land was stolen and how people were killed 
and you reiterated some of that today.
    So if you'd like to speak to any of those points and then 
we'll conclude.
    Mr. Thang. Yes, Mr. Chairman. Ms. Hong, we got words from 
her a few days ago. Last week she did go to make a prison visit 
to her husband in prison.
    His health doesn't look promising. He's still being denied 
access to medical care. Ms. Hong herself was in very frail 
health and therefore she had to skip for the past 2 months a 
prison visit to her husband.
    I'd like to point out Vietnam's response to the official 
communication from six human rights experts from the U.N.
    Just last month they came with a response claiming that Ms. 
Hong wasn't tortured, wasn't beaten, but she bumped her head 
against the taxi, the car that was taking her to the People's 
Committee office and injured herself, and she was very 
aggressive and abusive.
    She was a menace to the public security agents. That's 
their response. But, you know, she is very petite and very 
frail herself.
    So I couldn't imagine that she could pose any threat to 
those bullying public security agents at all. But the positive 
aspect of it is is that they stopped harassing her since the 
day that Rabbi Saperstein made the phone call directly to the 
Vietnamese Embassy in town and the U.N. special rapporteurs 
came out with a public statement denouncing the mistreatment of 
Ms. Hong.
    That points to the fact that the more attention given to 
people inside Vietnam, the communities who are under 
persecution inside Vietnam, the more intense the attention, the 
better off they are. That's why I suggested that Members of 
Congress take all the available opportunities to communicate 
directly their concerns to the Vietnamese Government.
    Now, the persecution against Pastor Nguyen Cong Chinh and 
Ms. Hong is just reflective of a long-term consistent policy 
from the top leadership of the Communist Party of Vietnam to 
eradicate all independent house churches in the Central 
Highlands.
    In 2002, the Communist Party set up the so-called Central 
Highlands Steering Committee to oversee the implementation of 
that policy and then 2 years later the Ministry of Public 
Security established the so-called Central Highlands Security 
Bureau to execute that policy.
    And therefore the ordinance on belief and religion of 2014 
didn't change that policy at all. The designation of CPC status 
for Vietnam and the lifting of that designation didn't change 
that policy at all.
    On February 27, 2015, on the Web site of General Tran Dai 
Quang there is an article. At the time he was the Minister of 
Public Security.
    There was an article extolling the exploits of the public 
security forces in Central Highlands and this is the verbatim 
statement:

          ``When I arrived in the Central Highlands, our task 
        of rescuing the people from the evil Ha Mon cult . . 
        .''

    Hai Mon is actually a Catholic variance based on the common 
belief that the Virgin Mary did appear in Ha Mon location and 
that stirs a lot of Montagnard to become Catholics.

        ``. . . was accomplished only recently. The Security 
        Team of the Police Force of the Town of Kontum 
        performed deeds that were representative of the 
        indefatigable efforts of safety forces throughout the 
        Central Highlands in our fight against reactionary 
        enemy forces disguised as ethnic religious groups.''

    Unfortunately, General Tran Dai Quang, the former Minister 
of Public Security, is not Vietnam's President, and that might 
explain why things have gotten worse over the past 12 months.
    And I would like to also add one point here about APEC 
Summit. It shouldn't be held in Danang City because Prime 
Minister Nguyen Xuan Phuc knows very well about that incident.
    He's fully aware about that incident, about Con Dao Parish. 
The Con Dao parishioners have twice engaged and talked directly 
to him when he was still the Vice Prime Minister and after he 
had become the Prime Minister, the parishioners of Con Dao also 
talked with him directly one more time.
    So he's fully aware of that incident and he should 
understand why we have so much concern about having the APEC 
Summit held in Danang City. That would bring all the issues 
about religious persecution, torture, land grabbing into 
sharper focus.
    Thank you.
    Mr. Smith. Let me just ask, if I could, your 
recommendations to the President and to the State Department, 
and I think it bears underscoring how important it is to--and 
it's the law.
    And as you know, I am the author of the Frank Wolf 
International Religious Freedom Act that was signed at the end 
of last year and that requires designated persons lists and the 
idea of a religious prisoners list so we know who it is 
regardless of their denomination or faith tradition that are 
being held and are prisoners of conscience.
    You did ask that the State Department investigate 200 
Vietnamese Government officials implicated in gross violations 
of human rights.
    They certainly can be made inadmissible to the United 
States pursuant to the Magnitsky Act--brand new human rights 
legislation--and they ought to be and have to be, and we can do 
identical, in a parallel way, with the new International 
Religious Freedom Act, make them--those who persecute based on 
faith inadmissible to the United States and other things as 
well like not being able to use our financial system.
    I think what should go forward from this hearing is that we 
are calling on the Trump administration to implement the law 
robustly.
    Not a cursory way, not just a few individuals but to be as 
comprehensive as possible and I think this is an engraved 
invitation to you, to Mr. Kumar, and others what you do already 
but to all of us, when we know of someone or have lists to get 
it to State, get it to the White House, get these people on the 
list if the information is accurate, and I know you 
painstakingly seek accuracy, so that we focus on those who are 
committing these crimes.
    In 2004, I authored a bill called the Belarus Democracy Act 
and that had these similar provisions like we put into the 
Frank Wolf International Religious Freedom Act and that was to 
hold individuals to account.
    So if you're part of a regime that tortures and abuses, you 
can't come here nor can your family. We don't want you here. We 
think you should be prosecuted, frankly, but that's probably 
not going to happen but at least the inadmissibility to the 
U.S. has to become a mainstay of our human rights work and it 
will make a difference.
    So, again, if you wanted to elaborate or speak to that 
issue and also on the issue of human trafficking and we have 
had specific hearings on human trafficking and the abuse of 
labor trafficking especially by the Vietnamese Government.
    I wrote the Trafficking Victims Protection Act and the very 
first case prosecuted by the U.S. Government was a Vietnamese 
case which has never been adequately resolved with Daiwa.
    And, you know, it just shows the past is prologue. They 
still, I believe, with a great deal of impunity, violate the 
rights of their own citizens by turning into commodities 
people's labor, completely in contravention of ILO standards.
    So if you wanted to speak to that as well and then we will 
conclude.
    Mr. Thang. Yes, Mr. Chairman.
    I would like to elaborate on the fact that since January 
2014 our organization, Boat People SOS, has joined with two 
other organizations, one based in England and the other one 
based in Germany, to train people inside Vietnam, especially 
members of independent religious communities and indigenous 
communities, on how to compile and prepare reports to the U.N. 
special rapporteurs and so far they have generated over 100 
reports--incident reports, and we have shared most of them with 
the State Department.
    And in those reports there is a very elaborate process to 
identify government officials who are behind the violations and 
we have lists of witnesses.
    We have contact information. So it has been very, very 
thoroughly worked on we are very confident about the accuracy 
of the information in there.
    And we continue to train people inside Vietnam to become 
rapporteurs themselves. So we will continue to produce and 
submit reports to your subcommittee.
    Regarding human trafficking, things haven't changed at all. 
Most alarming is that--you still remember the case in Jordan, 
and you talk with the King of Jordan, the Queen of Jordan about 
that case. That involved over 250 Vietnamese workers who are 
under slavery conditions in Jordan.
    At the time, we got a copy of a communique from Vietnam to 
an interagency delegation from Hanoi Center, Jordan--Amman, 
Jordan--to identify the strike leaders and take them home for 
punishment and the one who authored that or approved that order 
was none other than the then Minister of Labor, Invalids, and 
Social Affairs (MOLISA) and she's now the Chairwoman of 
Vietnam's National Assembly.
    So I don't think that things would change at all with 
regard to the fight against human trafficking by the Vietnamese 
Government. So she got promoted, and you know many other 
instances where the perpetrators got promoted. Those who 
committed or who are complicit in human trafficking got 
promoted to higher positions in the Government of Vietnam 
before.
    Mr. Smith. Mr. Kumar?
    Thank you both, all three of you, for your very, very 
incisive testimony, for your leadership. You know, we will be 
looking at some additional legislation toward Vietnam.
    Four times the House passed the Vietnam Human Rights Act, 
which I was a sponsor of, with great input from both of you, 
and each time it failed in the Senate, even though we had 
overwhelming bipartisan support in the House.
    So we are looking at a new imitative and above all right 
now we are asking the President to raise these issues and the 
State Department, and you have provided tremendous insight as 
to what those issues ought to be and also to enforce our law 
and hold the country itself responsible and also individuals 
who are perpetrating these horrific crimes.
    The hearing is adjourned.
    [Whereupon, at 1:57 p.m., the committee was adjourned.]

                                     
                                  
                            A P P E N D I X

                              ----------                              


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
